No. 20-1459
IN THE
SUPREME COURT OF THE UNITED STATES

United States of America,
Petitioner,
v.
Justin Eugene Taylor,
Respondent.

CERTIFICATE OF SERVICE
I, Frances H. Pratt, do swear or declare that on this 21st day of May, 2021, as
required by Supreme Court Rule 29, I have served the enclosed MOTION FOR
LEAVE TO PROCEED IN FORMA PAUPERIS and BRIEF IN OPPOSITION on each
party to the above proceeding or that party=s counsel, and on every other person
required to be served, by delivering to Federal Express an envelope properly
addressed to each of them and containing the above documents.
The names and addresses of those served are as follows:
Solicitor General of the United States
U.S. Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
Michael R. Dreeben
Kendall Turner
O’Melveny & Myers LLP
1625 Eye Street, NW
Washington, DC 20006
(202) 383-5300

